February 3, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Business Mail Entry Unit Oversight Reviews – Phoenix
         Business Mail Entry Unit, Phoenix, AZ
         (Report Number FF-MA-11-019)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s Business Mail Entry Unit (BMEU) testing at the
Phoenix BMEU, Phoenix, AZ (Project Number 11BR004FF004), performed November
29 through December 1, 2010. The Phoenix BMEU is in the Arizona District of the
Western Area. At the conclusion of FY 2011, we will summarize the results for all
interim reviews in a report to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission, which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC group to conduct tests of key
financial reporting controls.

We conducted this oversight review in support of the independent public accountant’s
reliance on Postal Service management’s testing, and overall audit opinions on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
February 2011 in accordance with the Council of the Inspectors General on Integrity
and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our
observations and conclusions with management on January 21, 2011, and included
their comments where appropriate.




                                  Restricted Information
Fiscal Year 2011 Financial Testing Compliance Business Mail                     FF-MA-11-019
 Entry Unit Oversight Reviews – Phoenix Business Mail Entry Unit, Phoenix, AZ


Conclusion

Based on our review of FTC’s work, FTC analysts conducted and documented their
examination of key SOX financial reporting controls. See Appendix A for the results of
our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters. Management agreed not to respond to the interim
reports but will have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Juan Gonzalez, audit manager,
at 303-925-7425 or me at 510-285-9024.

-Signed by Linda J. Libician-Welc
ERIFY authenticity with ApproveI



Linda Libician-Welch
Director, Field Financial – West

Attachments

cc: Douglas G. Germer
    Corporate Audit and Response Management




                                                    2
                                         Restricted Information
    Fiscal Year 2011 Financial Testing Compliance Business Mail                            FF-MA-11-019
     Entry Unit Oversight Reviews – Phoenix, Phoenix, AZ


                                                     APPENDIX A: REVIEW RESULTS

           Site Name                                                  Phoenix BMEU
           Unit 10-Digit Cost Center Code                             0363640960
           Location Type                                              BMEU
                                                                      October 1, 2010 through
           Scope Period Under Review                                  November 28, 2010
                                                                      Business Mail Review Topic 450000
           FTC Review Program Version and Date                        dated 11/24/2010
           FTC Team                                                   West




                                                                                                                  Did FTC
                                                                                                     Did FTC     adequately
                                                                      Did FTC       Did the OIG    perform the   document
                                                                         have          have           step in     its work
                                                                     exceptions     exceptions     accordance    performed    Did the OIG
                                                                        in this      that FTC          to its      and the    agree with
FTC Review                                                              step?        did not?       program?      results?     FTC’s site
Step #/Control #             FTC Review Step Description              (Yes/No)       (Yes/No)        (Yes/No)     (Yes/No)     results?*
450001/104CA163 Mail Check-In/Receipt                               No            No                      Yes      Yes           Yes
450002/104CA2          Mail Verification                            No            No                      Yes      Yes           Yes
450003/104CA65         Placarding/Induction                         No            No                      Yes      Yes           Yes
450004/104CA66         End-of-Day Reconciliation                   Yes            No                      Yes      Yes           Yes
450005/104CA06         SOX Certification                            No            No                      Yes      Yes           Yes
450006/104CA1          Finalizing Postage Statements                No            No                      Yes      Yes           Yes
   *Based on our review of FTC’s documentation posted to the Blue Share on January 10, 2011.




                                                                             3
                                                                  Restricted Information
